OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/PERU’S
HEALTH POLICY AND HEALTHY
COMMUNITIES AND
MUNICIPALITIES II ACTIVITIES
AUDIT REPORT NO. 1-527-14-010-P
May 15, 2014




SAN SALVADOR, EL SALVADOR
Office of Inspector General


May 15, 2014

MEMORANDUM

TO:              USAID/Peru Mission Director, Deborah Kennedy-Iraheta

FROM:            Regional Inspector General/San Salvador, Jon Chasson /s/

SUBJECT:         Audit of USAID/Peru’s Health Policy and Healthy            Communities     and
                 Municipalities II Activities (Report No. 1-527-14-010-P)

This memorandum transmits our final report on the subject audit. We considered your
comments on the draft report and included them in their entirety in Appendix II of this report.

This report contains seven recommendations to help USAID/Peru improve its activities. Based
on your written comments in response to the draft report, a management decision has been
reached on all seven. Please provide the Audit Performance and Compliance Division in the
USAID Office of the Chief Financial Officer with the necessary documentation to achieve final
action.

Thank you and your staff for the cooperation and assistance extended to us during this review.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
http://oig.usaid.gov
CONTENTS
Summary of Results .................................................................................................................1

Audit Findings ...........................................................................................................................4

     Mission Did Not Approve or Update Plans.............................................................................4

     Indicators Did Not Measure Strengthening Public Health Institutions at National Level ......... 5

     Progress Reports Did Not Attribute Results ...........................................................................6

     Healthy Community Activity’s Sustainability Was Not Addressed Adequately........................7

     Mission Did Not Modify Agreement to Include Change in Emphasis......................................7

Evaluation of Management Comments....................................................................................9

Appendix I—Scope and Methodology ...................................................................................11

Appendix II—Management Comments ..................................................................................13




Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
AOR             agreement officer’s representative
FY              fiscal year
HCM II          Healthy Communities and Municipalities II
HP              Health Policy
MSH             Management Sciences for Health
M&E             monitoring and evaluation
PMP             performance management plan
SUMMARY OF RESULTS
The Peruvian health sector has been undergoing a process of decentralization and reform since
2002. The government promotes regional planning in development and increasingly provides
financial resources directly to local governments, thereby encouraging them to tailor health care
activities to their communities. Government health entities at the national, regional, and local
levels strive to meet the challenges and opportunities created by a changing health sector, while
focusing on equal access for all.

However, even though health indicators—like the fertility rate and infant and maternal death
rates—have steadily improved, troubling differences between rural and urban populations
persist. These differences are exacerbated by poverty and lack of education, particularly in rural
areas.

USAID/Peru awarded Abt Associates Inc. a cost-plus-fixed-fee completion contract worth about
$19.6 million to implement the Health Policy (HP) activity from January 20, 2010, through
December 14, 2014. However, after the Agency stopped funding health projects in Peru at the
end of fiscal year (FY) 2012, HP’s value was reduced to $12.8 million. The mission also
awarded Management Sciences for Health (MSH) an associate cooperative agreement to
implement the Healthy Communities and Municipalities II (HCM II) activity from December 3,
2010, through December 2, 2015. The estimated cost is $11.9 million.

HP’s purpose is to provide technical assistance to improve the health sector’s performance
since decentralization by strengthening policies related to healthcare delivery capacities at all
levels of government. By doing so, the activity should strengthen Peru’s health system, and this
can lead to an increase in the quality and coverage of health services for all Peruvians,
particularly those who are poor and who live in rural areas.

The purpose of HCM II is to improve maternal/child and family planning/reproductive health in
the regions of Ayacucho, San Martin, and Ucayali (referred to as the geographical intervention
areas) through promoting healthy practices that have an impact on public health. The activity
seeks to implement the HCM II model, a methodology that uses community institutions like local
boards, to disseminate information about healthy behaviors—such as washing hands, disposing
waste, and boiling water—and to monitor activities that promote good health—such as prenatal
and infant care.

Both activities were designed and planned before February 2012 when USAID/Peru was
informed that funding for bilateral health projects would terminate at the end of the fiscal year.
According to mission officials, in light of positive economic and health indicators and budget
reductions, USAID/Washington prioritized development needs in Africa and elsewhere over
those in Peru.

Mission officials said they sought ways to end the health activities smoothly. In the case of HP,
the activity was reduced in budget and scope; in the case of HCM II, the Health Office sought
funding from the Alternative Development Program. 1 The mission developed a plan to use


1
  This USAID program was designed to help communities switch from growing illegal crops, like coca, to
legal ones like cacao.
                                                                                                    1
existing resources and relationships to make sure the health interventions and achievements
could be sustained.

The Regional Inspector General/San Salvador (RIG) conducted this audit as part of its FY 2014
audit plan to determine whether USAID/Peru is achieving its main goals of contributing to the
improvement of the quality and coverage of health services for Peruvians and helping improve
maternal/child and family planning/reproductive health in intervention areas.

For HP, the audit found that the activity is making adequate progress toward four of five planned
outcomes.

•   Following the guidelines of the technical assistance provided, the national, regional, and
    local authorities coordinate their work to develop, enforce, and effectively implement
    regulations and policies under a decentralized health plan. Currently, the Peruvian Congress
    and ministries of finance and health are reviewing the health workforce allocation proposal
    that HP helped the Peruvian National Association of Local Governments draft. Additionally,
    the San Martín Government enacted an ordinance outlining how decentralization would
    work.

•   On September 11, 2013, the Peruvian legislature approved a compensation proposal for
    health workers based on the technical assistance HP provided to the Ministry of Health.

•   National, regional, and local authorities generate and use information that is accurate and
    timely, which allows them to manage their health systems more efficiently. The medical
    records management software called Sis-GalenHos-Plus, developed with financial support
    from HP, is being implemented in all primary healthcare facilities managed by the Ministry of
    Health and has been made available to all facilities in the Peruvian public health sector. This
    software allows healthcare providers to improve how they manage medical records and
    patient history, and expedites patient visits to health facilities.

•   The public health sector is improving how it manages its employees. San Martín has
    completed approval of job descriptions and requirements for health workers and has
    implemented a management performance assessment tool.

However, progress toward the fifth outcome—ensuring that the Peruvian health system properly
procures and manages the needed medical products, vaccines, technologies, and supplies—
has been limited. Although activities for this outcome are scheduled to start in January 2014,
auditors confirmed that nobody from Abt was working on this as of November 2013.

For HCM II, the audit found that the activity made adequate progress toward refining the tools,
materials, and interventions comprising the HCM II model in selected geographic areas. It also
made some progress in getting government and private sector entities to adopt the model.

However, the audit found that USAID/Peru could not determine whether the activities’ results
are fully supporting their respective goals because the mission has not updated its performance
management plan (PMP) and monitoring and evaluation (M&E) plan for either activity (page 4).

In addition, activities to support sustainability were not fully implemented. The HCM II
agreement required MSH to identify one or more local organizations that could provide technical


                                                                                                 2
assistance after the activity ends. Yet this has not happened, which could hamper efforts to
become sustainable (page 7).

The audit team also found that:

•   Performance indicators did not measure strengthening of public health institutions at the
    national level (page 5). The indicators for HP measured how the activities were progressing
    only at the local and regional levels.

•   Progress reports did not provide attribution for results (page 6). Therefore, it was hard to
    discern what could be attributed specifically to USAID-funded activities.

•   USAID/Peru did not modify the HCM II agreement to include a change in the area of
    emphasis (page 7). This is a significant change that should be reflected in an update to the
    budget of the agreement and a revised description.

To further improve activity management, we recommend that USAID/Peru:

1. Implement a PMP for its second development objective: management and quality of public
   services improved in the Amazon Basin (page 5).

2. Work with MSH to implement a revised M&E plan (page 5).

3. Work with Abt to implement a revised M&E plan (page 5).

4. Implement a performance indicator that measures whether HP is making progress in
   strengthening public health institutions at the national level (page 6).

5. Require Abt to identify in its progress reports HP’s specific contribution to Peruvian strategic
   health indicators (page 6).

6. Implement a sustainability strategy to make sure the HCM II methodology continues after
   the activity ends (page 7).

7. Have its Regional Office of Acquisition and Assistance modify the agreement with MSH,
   including the budget support table for the three components and the activity description, to
   clarify the shift in emphasis (page 8).

Detailed findings appear in the following section. The scope and methodology are described in
Appendix I. Management comments are included in their entirety in Appendix II, and our
evaluation of management comments is on page 9.




                                                                                                 3
AUDIT FINDINGS
Mission Did Not Approve or Update
Plans
According to USAID’s Automated Directives System (ADS), Chapter 200.3.5.5, missions should
track whether projects achieve intended results by (1) planning how they will systematically
monitor and evaluate progress, (2) regularly monitoring the achievements of programs and
projects, and (3) collecting and analyzing performance information to track progress toward
planned outcomes. ADS 203.3.4, “Performance Management Plans,” requires USAID teams to
develop a PMP, and ADS 200.6 defines a PMP as a tool “to plan and manage the process of
monitoring, evaluating, and reporting progress toward achieving the various levels of the
approved results framework.”

USAID/Peru reinforces these requirements through its mission order on M&E. 2 The order adds
that the PMP for each development objective should be updated at least annually and specifies
that teams should develop a PMP within 4 months after USAID/Washington approves of its
country development cooperation strategy (CDCS).

According to ADS 203.3.5, implementers are expected to submit an M&E plan within the
first 3 months and before any major work begins. Moreover, the contracts with MSH and Abt
require them to develop formal M&E plans to help make sure activities meet their stated
objectives.

PMP. Although Peru’s CDCS was approved in July 2012, the mission has not completed its
PMP. Mission officials said this happened because they were still deciding how to address the
second development objective: management and quality of public services improved in the
Amazon Basin; therefore the officials had not finished the corresponding PMP.

HCM II M&E Plan. MSH developed an M&E plan in April 2011. However, it is outdated because
HCM II has undergone significant changes since April 2011, which resulted in several indicators
being dropped, added, or reworded. MSH has been using an Excel spreadsheet to track
indicators informally. MSH employees said they did not update the M&E plan because the
mission did not ask them to.

Due to a declining health portfolio, two staff positions, including the AOR for this agreement,
from USAID/Peru’s Health and Education Office were eliminated by September 2013. So the
mission assigned a new agreement officer’s representative (AOR) to manage this agreement on
September 6, 2013—2 months before the audit team arrived. This contributed to overlooking the
need to update the M&E plan sooner. In addition, the agreement stated that indicators and
targets may periodically be adjusted, without specifying how frequently this should happen.




2
  According to the order, an M&E plan and a PMP have the same information. The difference is that M&E
plans are for USAID-funded activities, whereas PMPs are for USAID technical teams (such as the Office
of Health and Education) that manage many activities.
                                                                                                   4
HP M&E Plan. Abt developed an M&E plan in October 2011; however, it has not been updated
even though HP’s scope and budget have been substantially reduced. Abt was in the process of
working with the contracting officer’s representative to update it.

Based on a review of that plan, the audit team concluded that none or few of the 17 indicators
were useful for managing HP. Most measured outcomes or impact, or provided context. While
they were useful, they would not necessarily inform an outsider about HP’s progress. For
example, there were indicators to measure the country’s malnutrition rate, its health expenditure
per capita, and the percentage of drugs available in health facilities.

USAID officials explained that outcome indicators are more useful in this particular contract
because it was designed to improve health care policy, planning, and strategy. Therefore, Abt
officials focused more on outcome indicators—and underestimated the importance of output
indicators that could better measure the activity’s direct contributions, such as number of people
trained, beneficiaries reached, or number of manuals developed or distributed.

Because the PMP and M&E plan are important management tools that should be updated
regularly, the absence of current ones increases the likelihood that USAID/Peru will not provide
the results needed to inform all stakeholders about the activities’ progress improve the activities’
effectiveness.

   Recommendation 1. We recommend that USAID/Peru implement a performance
   management plan for its second development objective.

   Recommendation 2. We recommend that USAID/Peru work with Management
   Sciences for Health to implement a revised monitoring and evaluation plan.

   Recommendation 3. We recommend that USAID/Peru work with Abt Associates Inc. to
   implement a revised monitoring and evaluation plan.

Indicators Did Not Measure
Strengthening Public Health
Institutions at National Level
According to ADS 203.3.2, performance indicators are “the basis for observing progress and
measuring actual results compared to expected results.” USAID’s TIPS No. 6, “Performance
Monitoring and Evaluation,” states, “Performance indicators are measures that describe how
well a program is achieving its objectives, and indicators tell specifically what to measure to
determine whether the objective has been achieved.” Furthermore, the framework described in
ADS 200.3.5.4 states, “All outputs that are necessary and together sufficient to achieve the
purpose should be identified.” According to the HP award, “National, regional and local level
public entities will be strengthened to respond to challenges and opportunities created by a
changing health sector.”

USAID/Peru developed performance indicators to measure HP’s progress at the regional and
district levels; however, it did not establish indicators to measure how and whether the activity
helps promote these results at the national level.



                                                                                                  5
Mission officials said their aim is to strengthen processes and capacities in San Martin and Lima
so the Peruvian Government can then apply them throughout the country. But we did not find
any indicators that provided information on how this would be achieved.

The indicator the mission used to measure progress in strengthening health institutions is the
number of health employees trained in intervention areas. Although this is a good measure of
progress in those areas, it does not provide information on the progress made nationally.

Mission officials said the instruments used to replicate the results from the regional to the
national level have not been prepared because of HP’s budget reductions. However, they said
the instruments will be included in the documents to be prepared for the upcoming report of all
health projects USAID/Peru has done.

Without input and output indicators that measure progress in strengthening public health
institutions at the national level, USAID/Peru is missing valuable information for making
decisions about HP and for verifying that the overall objective is being achieved. Therefore, we
make the following recommendation.

   Recommendation 4. We recommend that USAID/Peru implement a performance
   indicator that measures whether the Health Policy activity is making progress in
   strengthening public health institutions at the national level.

Progress Reports Did Not Attribute
Results
According to ADS 203.3.2.2.d, missions should clearly communicate “when results are achieved
jointly with the host country or other development partners.” The agreement between
USAID/Peru and Abt states that the purpose of progress reports is to describe results in relation
to the approved work plan. The reports should contain information such as the activity’s
progress since the last report, a results reporting table, and activities planned for the next
quarter.

Abt’s progress reports were well written and detailed. However, they did not state the specific
results that could reasonably be attributed to the USAID-funded activities. For example, the
reports mention achievements in reducing child malnutrition and increasing health insurance
coverage—achievements that require vast resources and the participation of many donors.
However, the reports implied that these achievements are completely attributable to HP.

This observation also applies to indicators that were being considered in the upcoming M&E
plan. As noted earlier in the report, most indicators measured the achievements of the Peruvian
Government and other organizations rather than the achievements of HP alone.

To avoid giving that impression, we make the following recommendation.

   Recommendation 5. We recommend that USAID/Peru require Abt Associates Inc. to
   identify in its progress reports the Health Policy activity’s specific contribution to the
   Peruvian strategic health indicators.




                                                                                                6
Healthy Community Activity’s
Sustainability Was Not Addressed
Adequately
ADS 200.6 defines sustainability as “the continuation of benefits after major assistance has
been completed.” Moreover, according to USAID 2011-2015 Policy Framework, development
programs need to be delivered in a more sustainable manner than ever before because of the
constrained fiscal environment. The framework states, “Sustainability is about building skills,
knowledge, institutions, and incentives that can make development processes self-sustaining.”

The goal of Component 3 of the cooperative agreement between USAID/Peru and MSH is to
help local institutions provide all of the necessary technical assistance and implement the HCM
II approach to local governments or to any other public or private institution. The agreement
required MSH to “select within the first quarter after award one or more local organizations for
approval by USAID/Peru” to provide this continued assistance.

Despite these requirements, aspects of the activity may not be sustainable. Although the
mission provided evidence of the transfer of the HCM II methodology to many local institutions,
there is no formal commitment to sustainability of the activity and its methodology after it ends in
2015. No agreements were in place to make sure somebody would provide technical assistance
based on the HCM II methodology because MSH had not selected a local organization to do so.

According to USAID/Peru, the approach of seeking commitments from local institutions to
continue the dissemination of the methodology was on hold because the budget for the Office of
Health and Education has been reduced significantly since HCM II began.

Without a documented sustainability plan, the successful HCM methodology may be
implemented poorly in the future or completely forgotten. The methodology and other positive
aspects of the activity won’t be replicated necessarily in communities throughout Peru.
Therefore, we make the following recommendation.

   Recommendation 6. We recommend that USAID/Peru implement a sustainability
   strategy to make sure the Healthy Communities and Municipalities II methodology
   continues after the activity ends.

Mission Did Not Modify Agreement to
Include Change in Emphasis
ADS 202.3.6.3 states that USAID missions must adjust tactics when conditions warrant. This
may include modifying or changing existing programs or activities. According to ADS 303.3.13,
the elements of a mutually binding agreement include a mutual understanding and an
agreement on the terms of the award. Furthermore, it states that if there are any substantive
changes to the program description or its budget, or if terms that were not addressed during
negotiations to the agreement are added, the AOR must obtain an agreement to the changes or
additional terms before funds can be obligated. ADS 303.3.17 states that when a modification to
the award is necessary, the AOR should prepare internal USAID documentation that supports it.

However, although the activity’s scope and budget changed significantly after USAID/Peru
announced the end of its bilateral health program in February 2012, the HCM II agreement was
                                                                                                  7
not modified accordingly. The emphasis of the activity changed from promoting healthy habits to
organizing activities during which health topics were discussed, with an emphasis on promoting
diverse leadership (including women) and community cohesion. This happened because 70
percent of HCM II’s funding was now from the Alternative Development Program, and those
kinds of activities were more in line with it.

Moreover, HCM II has less of an emphasis on transfer and sustainability efforts (Components 2
and 3), and focused just in San Martin in accordance with the mission’s health exit plan. These
major variations in scope and budget should be reflected in an award modification as an update
to the budget table of the agreement and a revised activity description.

Mission officials said they did not modify the award because the annual work plan was modified
and the mission considered this was sufficient. They said the changes were only an adjustment
in emphasis and not a change in the description of the programmed activities.

However, given the significant nature of the changes, an award modification per the ADS
guidance seems warranted. Having an agreement with an outdated budget and activity
description may lead to improper implementation of the activity, because the award is the legally
binding instrument for the activities to be performed. It may also lead to disagreements about
whether the activity met its goals. To address this concern, this audit makes the following
recommendation.

   Recommendation 7. We recommend that USAID/Peru have its Regional Office of
   Acquisition and Assistance modify the agreement with Management Sciences for Health,
   including the budget support table for the three components and the activity description,
   to clarify the shift in emphasis.




                                                                                               8
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Peru agreed with all seven recommendations. Based on comments from the mission,
management decisions have been reached on all seven. Our detailed evaluation of
management comments follows.

Recommendation 1. USAID/Peru agreed with the recommendation and is in the process of
finalizing the project appraisal document for its second development objective, which will include
the development objective PMP. These approved documents will fold into the mission-wide
PMP. The target date for completion of these actions is September 15, 2014. Based on the
mission’s response and planned actions, a management decision has been reached on this
recommendation.

Recommendation 2. USAID/Peru agreed with the recommendation and has provided guidance
to MSH on USAID policy for revising an M&E plan for HCM II. The revised plan will include
fewer indicators and ones that focus on performance management. The target date for
completion of these actions is September 15, 2014. Based on the mission’s response and
planned actions, a management decision has been reached on this recommendation.

Recommendation 3. USAID/Peru agreed with the recommendation and is in the process of
updating the M&E plan for this activity. The mission is reviewing a revised set of indicators for
HP, and it plans to reduce the number and focus on those that are useful for performance
management and “assess the higher level impacts of the activity.” The target date for
completing these actions is September 15, 2014. Based on the mission’s response and planned
actions, a management decision has been reached on this recommendation.

Recommendation 4. USAID/Peru agreed with the recommendation to measure the progress of
activities HP carried out at the national level, as specified in the contract. While updating HP’s
M&E plan, the mission expects to identify all necessary indicators. The mission plans to revise
and approve the plan by September 15, 2014. Based on the mission’s response and planned
actions, a management decision has been reached on this recommendation.

Recommendation 5. USAID/Peru agreed with the recommendation and will include a
requirement in the award that the implementing partner identify and report on its specific
contributions to the host country’s health indicators and acknowledge the role of other actors in
achieving them. The estimated approval date for the award modification is September 15, 2014.
Based on the mission’s response and planned actions, a management decision has been
reached on this recommendation.

Recommendation 6. USAID/Peru agreed with the recommendation. The mission is in the
process of modifying the award to include a component on building local capacities for future
technical assistance for implementing the HCM model. The estimated approval date for the
award modification is July 30, 2014. Based on the mission’s response and planned actions, a
management decision has been reached on this recommendation.


                                                                                                9
Recommendation 7. USAID/Peru agreed with the recommendation and is in the process of
modifying the award to include levels of funding by components in the budget. The estimated
approval date for the award modification is July 30, 2014. Based on the mission’s response and
planned actions, a management decision has been reached on this recommendation.




                                                                                           10
                                                                                       Appendix I




SCOPE AND METHODOLOGY
Scope
We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on the audit
objective. We believe that the evidence obtained provides that reasonable basis.

The purpose of this audit was to determine whether USAID/Peru’s HP and HCM II activities
were achieving their respective main goals of contributing to the improvement of (1) the quality
and coverage of health services for all Peruvians, and (2) maternal/child and family
planning/reproductive health in intervention areas.

For HP, the mission awarded Abt a cost-plus-fixed-fee completion type task order for
approximately $19.6 million (reduced to $12.8 million) from January 20, 2010, to December 11,
2014. As of December 1, 2013, cumulative obligations and expenditures totaled $12,808,838
and $10,544,395, respectively. For HCM II, the mission awarded MSH an associate cooperative
agreement for approximately $11.9 million from December 3, 2010, to December 2, 2015. As of
December 1, 2013, cumulative obligations and expenditures totaled $10,144,513 and
$6,944,940, respectively. These expenditures represent the amounts audited.

The audit covered activities that occurred from the start of the awards—January 20, 2010, for
HP and December 3, 2010, for HCM II—through October 31, 2013. In planning and performing
the audit, we reviewed applicable laws and regulations as well as USAID policies and
procedures pertaining to the activities, including ADS 200, 201, 202, 203, 204, 205, 206, 253,
and 303 as well as supplemental guidance. The audit relied on the following sources of
evidence: the contract; interviews with employees from USAID/Peru, Abt, MSH, and
beneficiaries; and documentation maintained at the mission and at the implementers’ main
offices in Lima.

The audit team conducted fieldwork in Peru from November 4 through November 22, 2013, in
Lima and the departments of San Martin and Ucayali.

Methodology
To answer the audit objective, we interviewed employees from USAID/Peru, the Peruvian
Ministry of Health, the Peruvian Health Insurance Institute, Abt, and MSH.

Through these interviews and review of activity documentation, the audit team obtained an
understanding of: (1) the activities’ goals, (2) how performance indicators, targets, and baseline
data were established to measure progress, (3) how the mission ensures the quality of the data
reported by the implementing partners, (4) how the mission monitors activities, and (5) whether
the mission is aware of any allegations of fraud or other potential illegal acts or noncompliance
with laws, regulations, and agreement terms. We documented and tested compliance with
requirements for contract documentation, gender analysis, human trafficking, sustainability,
branding and marking, and environmental compliance.

                                                                                               11
                                                                                        Appendix I



To verify the status of actions completed during the activities’ implementation through
October 31, 2013, we visited a judgmentally selected sample of four communities, one regional
health directorate, three local governments, and two health centers. The judgmental sample
selection was based on an analysis of factors including the number of objectives relevant to the
site and its diversity of activities. We did not visit three of the selected sites in Ucayali due to
inclement weather conditions and replaced them with a site that was accessible from Pucallpa,
the region’s capital. We conducted field visits and interviewed beneficiaries to validate reported
results to the extent possible. Since the testing and the site selections were based on
judgmental samples, the results and conclusions related to the analysis were limited to the
items and areas tested, and they cannot be projected to the entire population. We believe our
substantive testing was sufficient to support the audit’s findings.




                                                                                                 12
                                                                                     Appendix II




MANAGEMENT COMMENTS
                                MEMORANDUM
DATE:         April 23, 2014

TO:           Jon Chasson, Regional Inspector General/San Salvador

FROM:         Deborah Kennedy-Iraheta, USAID/Peru Mission Director /s/

SUBJECT:    Comments to March 17, 2014 Draft Audit Report of two USAID/Peru’s Health
            Activities
______________________________________________________________________________

Thank you for giving USAID/Peru the opportunity to respond to the draft report of the Audit of
USAID/Peru’s Health Development Activities (Healthy Communities and Municipalities II and
Health Policy) per your memorandum dated March 17, 2014.

Below we have listed each of the recommendations as presented in the March 17, 2014 draft.
Following each recommendation are USAID/Peru’s response and comments. Additional
comments and clarification on the wording in the recommendations and/or body of the report are
included in the last section of this memorandum for your consideration.

Recommendation 1. We recommend that USAID/Peru implement a performance management
plan for its second development objective. The Mission concurs with this recommendation.

We agree that it is useful to have a broader strategy that guides our implementation and measures
our high level achievements and is linked to the activity level Monitoring and Evaluation (M&E)
plan. At the development objective level the document referred to is an M&E plan not a PMP
(explained below).

The CDCS approved for Peru in 2012 did not consider a separate development objective for
health activities. Instead, health activities were integrated under the Development Objective 2
(DO2): Quality and management of public services improved in the Amazon Basin, which
focuses on strengthening national and sub-national institutions to deliver improved public
services, including health and education (Country Development Cooperation Strategy - CDCS
page 39). After the approval of the CDCS, the Mission started a realignment process of its
current portfolio to operationalize the implementation of the CDCS, and opted to develop a
Project Appraisal Document (PAD) for each DO. The PAD provides the framework under which
all current and future implementing mechanisms coordinate and achieve each CDCS DO.

The Mission is in the process of finalizing the DO2 PAD, which, as per ADS 201 and 203, will
include the DO2 M&E plan. The approved DO2 Project Logframe, and the DO2 Project M&E
Plan will fold into the Mission-wide PMP. The Mission PMP requires project Logframes (see
                                                                                              13
                                                                                         Appendix II



203.3.3), which we are currently finalizing. Please take note that the DO2 Logframe has recently
been modified due to unanticipated changes in funding levels.

When the DO2 M&E Plan is completed and approved by the Mission Front Office, we will
request that this recommendation be closed. We estimate this will be completed by September
15, 2014.

Recommendation 2. We recommend that USAID/Peru work with Management Sciences for
Health to implement a revised monitoring and evaluation plan. The mission concurs with this
recommendation.

The mission agrees this is a good practice and is in the process of developing updated M&E
plans for this activity. We have met with MSH and the evaluation consultants to stress the need
to revise the plan in line with the agency and mission guidance for M&E plans. Included in
those changes is a revision process to reduce the number of indicators, to focus on those that are
useful for performance management as well as to assess the higher level impact of the activity.
A revised set of indicators for Health Communities and Municipalities II (HCM II) is currently
under review.

When the revised HCM II M&E plan is formally approved by USAID, we will request that this
recommendation be closed. We expect this approval to be given by September 15, 2014.

Recommendation 3. We recommend that USAID/Peru work with Abt Associates Inc. to
implement a revised monitoring and evaluation plan. The mission concurs with this
recommendation.

The mission agrees this is a good practice and is in the process of developing updated M&E
plans for this activity. We have met with Health Policy (HP) staff under the Abt Associates, Inc.
contract and the evaluation consultants to map out changes to the plan in line with agency and
mission guidance for M&E plans. Included in those changes is a revision process to reduce the
number of indicators, to focus on those that are useful for performance management as well as to
assess the higher level impacts of the activity. A revised set of indicators for HP is currently
under review.

When the revised M&E plan is formally approved by USAID, we will request that this
recommendation be closed. We expect this approval to be given by September 15, 2014.

Recommendation 4. We recommend that USAID/Peru implement a performance indicator that
measures whether the Health Policy activity is making progress in strengthening public health
institutions at the national level. The Mission concurs with this recommendation.

It would be useful to measure the progress of activities that HP is carrying out at the national
(aka central government) level, as specified in the contract. In order to identify the indicators it
will be necessary to update the Health Policy M&E plan, which we will carry out in response to
recommendation 3.

                                                                                                   14
                                                                                          Appendix II




When the revised M&E plan is formally approved by USAID, we will request that this
recommendation be closed. We expect approval of the HP M&E plan to be given by September
15, 2014.

Recommendation 5. We recommend that USAID/Peru require Abt Associates Inc. to identify in
its progress reports the Health Policy activity’s specific contribution to the Peruvian strategic
health indicators. The Mission concurs with this recommendation.

We agree that this is good practice to identify the implementing partner’s specific contribution to
the host country health indicators and acknowledge the role of other actors in achieving them. In
consultation with our Regional Office of Acquisition and Assistance, we have determined that
the most efficient way to do this is to include an additional requirement to section F.6(I)(b)
Quarterly progress reports of the Task Order in the upcoming planned modification. The
modification will add item 9, which will specify additional information required in the reports to
report on the Peruvian strategic health indicators.

When the modification to the contract is approved, we will request that this recommendation be
closed. We estimate the modification to the contract will be approved on or about September 15,
2014.

Recommendation 6. We recommend that USAID/Peru implement a sustainability strategy to
make sure the HCM II methodology continues after the activity ends. The Mission concurs
with this recommendation.

We agree that ensuring that the HCM II methodology continues to be a viable tool used in Peru
after the activity ends is important. In fact, the HCM II Associate Award program description
Component 2) Public and Private Sector Adoption of HCM Model and Component 3) Peruvian
Capacity for Sustainability, include activities specifically targeted to building local capacity for
sustaining program advances. The current HCM II project is designed to consolidate the
approach and model developed through the original USAID/Peru HCM project and provide
assistance to transfer the approach or model to public and private entities, as well as ensure that
one or more Peruvian institutions can provide this assistance after the project ends, in order to
sustain the significant gains achieved in promoting maternal and child health in Peru.

We agree that creating a sustainability plan for the remaining life of the award will be a useful
tool to prioritize efforts. The HCM methodology is a tool that is useful to engage participation at
the community level and strengthen decentralized decision-making. It is a methodology that can
and should be adapted to fit the needs of those working on it. While we will ensure there is work
to build local capacity among non-governmental organizations, we are also committed to
ensuring that public entities and government organizations continue to scale-up and use the
HCM tools. The project description will be updated to include a component to build local
capacities for future technical assistance for HCM model implementation.



                                                                                                   15
                                                                                        Appendix II



We are in the process of implementing an agreement modification; when it is finalized we will
request that this recommendation be closed. We estimate the modification to be approved by July
30, 2014.

Recommendation 7: We recommend that USAID/Peru have its Regional Office of Acquisition
and Assistance modify the agreement with Management Sciences for Health, including the
budget support table for the three components and the activity description, to clarify the shift in
emphasis. The Mission concurs with this recommendation.

At the time of the change in approach cited in the Audit Report, the Contracting Officer was
consulted on multiple occasions, in line with ADS 202.3.6.3, which states: “Changing projects
and instruments mid-stream can create legal problems and disrupt implementation.
Consequently, the risk of such changes must be balanced prudently against the intended benefit.
Always remember that once a plan is finalized and implementation begins, learning occurs…
The DO Team must consult the Contracting/Agreement Officer and, if appropriate, GC or its
RLA as soon as possible when it is considering any change that would affect a legal agreement.”

Upon complying with this process it was agreed in May 2012 that a modification to the contract
was not necessary (see attached documentation). However, the Mission agrees that the level of
funding by components could have been documented in a budget modification.

We are in the process of implementing an agreement modification. Once this process is
concluded, we will request that this recommendation be closed. We estimate the modification to
be approved by July 30, 2014.

Comments/Suggestion/Clarifications related to the Body of the Report:

Below are some suggested clarifications/changes to consider before the final issuance of the
audit report. There are a few statements in the Draft Report which the Mission would ask to be
revisited for more clarity and/or accuracy.

Page 1:
Paragraph 3: We suggest adding the following clarifying statement: “The Abt contract was
competitively awarded on a fair opportunity basis on January 20, 2010 at an estimated cost of
US$19,575,526 for a five-year period. Due to reduction of health funds to Peru ending with
FY2012, this project was de-scoped and the TEC reduced to US$12,808,838.”

Paragraph 6: The report states: “According to mission officials, this decision was reached
because Peru had reached a stage where direct health interventions were no longer needed.” We
suggest the following statement more accurately reflects the situation: “In light of positive
economic and health indicators and reductions in budget support, USAID Washington
prioritized development needs in Africa and elsewhere over those in Peru.”

Page 2:
Third bullet: GalenHos has changed to Sis-GalenHos-Plus. Sis-GalenHos-Plus is the copyright

                                                                                                  16
                                                                                         Appendix II



name the system is registered under in Peru. Word “clinics” should be primary healthcare
facilities; and “Peruvian social insurance organization” is the Ministry of Health.

Seventh paragraph: The report states: “Although activities for this [fifth] outcome are scheduled
to start in the current quarter, auditors confirmed that nobody from Abt was working on this.”
In December 2013, HP hired a local consultant in San Martin to support HP activities, including
the fifth outcome. In February 2014, HP hired a Team Leader to re-initiate TA in this fifth
outcome.

Page 3:
Numbered bullets: 1, 2 and 3 Change the word implement to draft or develop. We propose the
wording be changed from “implement” (which implies a commitment to carry out activities
which we may or may not be able to do based on the fact that our funds ended in FY12).

Bullet 4 - We propose the wording be changed from implement, which implies a commitment to
carry-out activities; whereas the intent of the wording is to identify.

Page 4:
Fourth paragraph: Regarding why the PMP document had not been finalized at the time of the
audit, the audit report states: “An official said uncertainty over the amount of health funding and
the scope of health activities delayed the PMP’s completion. The mission stopped receiving
health funds in FY 2012 and their Health Exit Plan outlined measures for the continuation of
activities, including the identification of other sources of funds” - this statement refers to an
M&E plan for the Health team only and does not reflect the reasons why the DO2 M&E plan
(not a “PMP,” which only applies at the CDCS level of monitoring) has not been completed. The
mission suggests changing PMP to Monitoring and Evaluation plan.

Page 5:
While we agree in general with recommendation 4, we do not agree with the basis as described
in the last paragraph. The audit report states that the basis for Recommendation 4 is “it (HP) did
not establish indicators to measure how and whether the activity helps promote these results at
the national level. For instance, participants at the technical and training activities came from the
intervention regions of Ayacucho, San Martin and Lima; an insignificant number of people came
from other regions. Without proper training in those regions, it is not clear how the benefits of
the training activities will be disseminated throughout the rest of the country once the HP activity
is ready to be disseminated nationally.”

To clarify, it is not part of the HP contract to disseminate and/or conduct training nationwide.
What is meant by “national” is “Central government” which includes the Ministry of Health,
Ministry of Social inclusion, etc. We are at a point in health development assistance where we no
longer pursue massive training of health personnel as a cost effective way to improve or
strengthen health systems. We do not have the resources to blanket cover all public health
workers or facilities in Peru, rather our aim is to strengthen the central level (national level)
processes and capacities in selected areas for eventual scale-up (to other regions) by the Peruvian
government with their resources.

                                                                                                  17
                                                                                      Appendix II




Page 7:
Paragraph 6: We can develop a sustainability strategy but whether or not we can “implement” it
is questionable, this implies funding is available and the last year of health funds we received
were in FY12. We suggest the wording change from implement to develop. In order to close the
recommendation we would have to have completed the activity which will not happen before a
one year period.

Page 8:
Paragraph 2: The audit report states “The mission did not modify the award because, according
to the Agreement Officer Representative (AOR), the annual work plan was modified, and the
AOR thought that action was sufficient.” This is an incorrect statement and implies the AOR
made an executive decision and did not follow the required internal consultative and approval
process. In fact, numerous discussions were held with the AO and the ROAA team on this issue.
The AO determined (and the AOR concurred) that the PD did not need to be modified but rather
the changes would be managed through the workplan. We do however concur that amending the
budget for each component would have added more clarity. Please see attached documentation
for more information. We ask that this paragraph be significantly reworded or removed.




                                                                                               18
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
